<html>
<title> - BREAKING THROUGH THE BACKLOG: EVALUATING THE EFFECTIVENESS OF THE NEW STATE STRIKE FORCE TEAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                     BREAKING THROUGH THE BACKLOG:
                  EVALUATING THE EFFECTIVENESS OF THE
                      NEW STATE STRIKE FORCE TEAM

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       FRIDAY, SEPTEMBER 21, 2012

                               __________

                           Serial No. 112-78

                               __________

       Printed for the use of the Committee on Veterans' Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

78-768                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               JERRY McNERNEY, California, 
ANN MARIE BUERKLE, New York          Ranking
MARLIN A. STUTZMAN, Indiana          JOHN BARROW, Georgia
ROBERT L. TURNER, New York           MICHAEL H. MICHAUD, Maine
                                     TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.











                            C O N T E N T S

                               __________

                           September 21, 2012

                                                                   Page

Breaking Through The Backlog: Evaluating The Effectiveness of The 
  New State Strike Force Team....................................     1

                           OPENING STATEMENTS

Chairman Jon Runyan..............................................     1
    Prepared Statement of Chairman Runyan........................    22
Hon. Jerry McNerney, Ranking Democratic Member...................     2
Hon. Bill Flores.................................................     4

                               WITNESSES

Mr. Eliseo ``Al'' Cantu, Jr., Chair, Texas Veterans Commission...     5
    Prepared Statement of Mr. Cantu, Jr..........................    22
Mr. James O. Richman, Director, Claims Representation and 
  Counseling, Texas Veterans Commission..........................     7
    Prepared Statement of Mr. Richman............................    24
Mr. Steve Hernandez, County Veterans Service Officer, McLennan 
  County, Texas..................................................     8
    Prepared Statement of Mr. Hernandez..........................    26
Ms. Diana Rubens, Deputy Under Secretary for Field Operations, 
  Veterans Benefits Administration, United States Department of 
  Veterans Affairs...............................................    15
    Prepared Statement of Mrs. Rubens............................    27
    Accompanied by:

      Mr. John Limpose, Director, Waco Regional Office, Veterans 
          Benefits Administration, United States Department of 
          Veterans Affairs

                        QUESTIONS FOR THE RECORD

Hon. Jon Runyan, Chairman, Subcommittee on Disability Assistance 
  and Memorial Affairs to Ms. Diana Rubens, Deputy Under 
  Secretary for Field Operations:................................    30

 
                     BREAKING THROUGH THE BACKLOG:
    EVALUATING THE EFFECTIVENESS OF THE NEW STATE STRIKE FORCE TEAM

                              ----------                              


                       Friday, September 21, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Runyan, McNerney, Barrow, and 
Waltz.
    Also Present: Representative Flores.

            OPENING STATEMENT OF CHAIRMAN JON RUNYAN

    Mr. Runyan. Good morning and welcome, everyone. This 
oversight hearing of the Subcommittee on Disability Assistance 
and Memorial Affairs will now come to order.
    As is often the case when this Subcommittee convenes, we 
are here to discuss the backlog of veterans disability benefits 
claims. Unfortunately, when such a discussion takes place, we 
often find ourselves having the same discussion over and over. 
Frustrated veterans want to know why it takes so long to 
process their claim; frustrated lawmakers want to know why the 
backlog keeps increasing; and frustrated VA employees want 
everyone to know what the folks on the front lines are doing, 
that they are doing the best they can to try to keep up with 
the increasing amount of claims. However, every so often we 
have an idea that is interjected into the discussion, and we 
are here today to discuss one such idea.
    In 2009, the State of Texas created a Claims Processing 
Assistance Team that helped reduce pending claims at the 
State's two regional offices, or ROs, in Waco and Houston. Four 
hundred thousand dollars was allocated toward a dozen employees 
over several months. Those employees reduced the number of 
pending claims in Waco and Houston by 17,000. Despite this 
success, the situation has since worsened for veterans not only 
in Texas but across the country as the amount of pending claims 
has doubled since that time.
    As a recent Center for Investigative Reporting study 
reveals, the impact of the backlog varies by region. The study 
finds that veterans in sparsely populated States often have 
their benefit claims processed faster than those in more 
populated States. In addition to this study, the media has also 
been paying close attention to veterans who must wait the 
longest to receive their benefits, which are veterans in Texas, 
and, as is well-known to the Ranking Member Mr. McNerney, 
veterans in California. But the fact remains no matter where 
the veteran is located, more often than not the veteran is 
waiting too long to receive their benefits decision.
    Once again, taking action into their own hands in late July 
of this year, the Texas State legislature created a State 
Strike Force Team led by the Texas Veterans Commission. This 
time they have allocated $1.5 million and 16 full-time 
employees. The goal of the State Strike Force Team is to assist 
veterans and their families in receiving disability 
compensation and pension payments earlier than expected.
    Specifically, eight claims counselors will be located at 
both the Waco and Houston regional offices to help process 
claims. There will also be fully developed claims teams located 
throughout the State to improve access to and assist veterans 
with fully developed claims. By examining this process today we 
are hoping that the State Strike Force Team will serve as a 
model to other States and perhaps even lead to the creation of 
a similar Federal Strike Force Team.
    I want to thank the VA, the Texas Veterans Commission, and 
Mr. Hernandez for their valuable input as we work together to 
find important solutions to the growing backlogs of claims. I 
welcome today's witnesses to continue this ongoing discussion 
and offer their own specific recommendations on how to improve 
the current system of processing veterans' disability claims.
    At this time I would like to welcome Mr. Flores to our 
hearing. Although he is not a member of the Subcommittee, he is 
a member of the full Committee.
    At this time I would like to yield to Ranking Member, Mr. 
McNerney, for any opening statement he might have.

    [The statement of Jon Runyan appears in the Appendix]

 OPENING STATEMENT OF HON. JERRY MCNERNEY, RANKING DEMOCRATIC 
                             MEMBER

    Mr. McNerney. Well, thank you, Mr. Chairman, for holding 
today's hearing on possible ways to address the VA's mounting 
backlog of claims and appeals. Today over 1.3 million claims 
and appeals are jammed in a flawed processing system and in an 
organization with a current management culture that often 
overemphasizes production over quality. It is our collective 
quest to vanquish BVA's backlog of claims and appeals, which as 
I mentioned previously, currently exceeds 1 million. It is my 
hope that we can improve the performance of the system as a 
whole while ensuring accurate and accountable claims outcomes 
for our veterans.
    Since 2007, the VBA has added over 10,000 claims processing 
personnel and Congress has funded these requests. Yet the 
backlog still climbs. Merely adding more people to the same 
broken system does not expedite benefits to veterans and their 
families. We need to continue to look at the system with fresh 
eyes to help the VA with managing its claims processing 
mission.
    As the VA OIG recently concluded in its report after 
inspection reviews of 16 VA ROs, the VBA is processing 23 
percent of its claims erroneously. To change this, the VA OIG 
recommended that VA needs to enhance policy guidance, 
compliance, workload management, training and supervisory 
review in order to improve claims processing operations.
    These conclusions echo many of the provisions of the 
Veterans Benefits Improvement Act of 2008, P.L. 110-389, as 
well as the continued course from Congress and other 
stakeholders that say time and again that the backlog is just a 
symptom of a much larger problem. The current system is broken 
and in need of a major overhaul. We need to focus on getting 
the claims right the first time.
    Today we have representatives here from the Texas Veterans 
Commission (TVC), and I welcome you here this morning. TVC has 
hired employees to create strike force teams out of the monies 
from State coffers. These teams are working side-by-side with 
VA employees to help process claims. The Waco and Houston Texas 
regional offices that serve these veterans are considered 
underperforming by the VA's own standards, where wait times 
exceed the national averages.
    I know that in California, particularly in the Oakland and 
Los Angeles regional offices, we are experiencing similar 
extraordinary wait times for claims decisions, including 
lengthy work stoppages, which means delays will only increase. 
As a Representative from the State with the most veterans per 
capita, I agree that we need to come up with solutions that put 
veterans first, and this is what the VA is not doing enough of.
    There is no shortage of getting around the basics of having 
well-trained employees who are empowered with the right tools 
and the right systems to get the job done the first time. We 
need claims done right the first time, as if a do-over was not 
an option, and that is why I still remain concerned that the 
work credit system may not keep the focus on the veterans but 
rather on churning out more work.
    We have veterans committing suicide in shameful numbers. 
The most recent figure is 18 veterans per day. That is one 
veteran every 80 minutes, over 6,500 a year. That means that 
before this hearing is over, a veteran may take his or her 
life. That breaks my heart. Having a system like the current 
claims processing system where over 65 percent of claims are in 
backlog also breaks my heart, with many veterans and families 
suffering while waiting for a decision.
    We need to get this right so that no claims are languishing 
and veterans, their families and survivors get the benefits 
that they have earned and deserve without delay.
    With this in mind, I look forward to the hearing, I thank 
the Chairman and I yield back.
    Mr. Runyan. I thank the gentleman. At this time I would 
like to ask unanimous consent that Mr. Flores be able to sit in 
on the Committee and participate and ask questions. Hearing no 
objection, so ordered.
    I would also at this time like to ask any of the members, I 
know Mr. Flores has an opening statement he would like to make, 
but do any of the other members wish to?
    If not, with that, Mr. Flores, you are now recognized.

             OPENING STATEMENT OF HON. BILL FLORES

    Mr. Flores. Thank you, Chairman Runyan and Ranking Member 
McNerney, for allowing me to be part of this important hearing 
today.
    I think it is important that we hold this hearing so that 
we can take a closer look at this issue, which is important not 
only to veterans living in Texas, but also to veterans across 
this country. The growing problem with processing disability 
claims that the Department of Veterans Affairs faces in serving 
Texas veterans is merely a microcosm of a problem at large that 
our veterans face around the country today.
    Unfortunately, Mr. Chairman, Texas is only one example of 
the glaring problems and service trials our veterans are facing 
throughout the country. It is also important that we work 
through the problems within our VA and implement a flawless 
claims processing system for our Nation's veterans.
    I am concerned about the VA claims issue, particularly 
those at the Waco VARO, which is in my district. I appreciate 
the fact that the VA has appointed a new director to the Waco 
VARO to address this issue. I have met with Director Limpose 
and I am pleased with his efforts thus far and his commitment 
in particular to address the Waco backlog claims. He and I have 
agreed to meet again in late November or early December to 
follow up on his progress.
    I applaud Texas Governor Rick Perry, Texas Lieutenant 
Governor David Dewhurst, Speaker Joe Straus and the leadership 
of the Texas Veterans Commission for committing valuable State 
resources to help address this issue by creating the Texas 
State Strike Force--that is a lot of vowels to say at one 
time--Texas State Strike Force Team and for being proactive to 
help our Nation's veterans. I appreciate Mr. Cantu and Mr. 
Richman for agreeing to testify today.
    I suggested that Mr. Hernandez be allowed to speak at this 
hearing. The reason for that is we are going to hear a lot of 
numbers today. We are going to hear about claims backlogs and 
the claims delays and the time to process claims. But behind 
every one of those numbers is the face of a veteran and Mr. 
Hernandez can help put a face on each of those numbers. So I 
think his testimony will be valuable.
    In my district in McLennan County, which is the home of the 
Waco VARO, we have tens of thousands of veterans, given that we 
are a neighbor to Fort Hood, the largest Army base in the 
country.
    Mr. Hernandez has a quote in his testimony that I think is 
particularly poignant, and it says this: ``The effects of the 
prolonged backlog are affecting the veteran in the most adverse 
way. If the data is possible, I am certain it would be a 
travesty to know how the backlog has affected veteran 
homelessness, relationships, crime, addiction, mental health, 
and suicides. The prolonged wait on claims decisions cannot be 
productive on our society and unfortunately will continue to 
lead to social problems at the national level. A sad and 
embarrassing end to the dedicated patriots who have braved 
austere conditions, family separation, traumatic experiences, 
and multiple deployments to provide us with the freedom and the 
liberty as a free society.''
    That is what we need to think about. Behind every number 
that we talk about today is the face of a veteran.
    Before I close I think it is important that we as a 
Committee and we as a Congress think outside the box and think 
about solutions. I personally could care less about the 
bureaucracy. I care about the veterans. Our goal ought to be as 
a Congress and as a Nation to deliver the benefits to the 
veterans. So whatever it takes, and if it takes thinking 
outside the box, let's think about how we do that to take care 
of the veterans versus taking care of the bureaucracy.
    Thank you, Mr. Chairman. I yield back.
    Mr. Runyan. I thank the gentleman.
    At this time I would like to welcome our first panel to the 
witness table. We will be hearing from Al Cantu, the Chair of 
the Texas Veterans Commission. Next we will hear from James 
Richman, the Director of Claims Representation and Counseling 
with the Texas Veterans Commission. And our final witness on 
this panel will be Mr. Steve Hernandez, the McLennan County 
Veterans Service Officer.
    Your complete and written statements will be entered into 
the hearing record. Mr. Cantu, you are now recognized for 5 
minutes for your oral statement.

 STATEMENTS OF ELISEO ``AL'' CANTU, JR., CHAIR, TEXAS VETERANS 
       COMMISSION; JAMES O. RICHARDSON, DIRECTOR, CLAIMS 
 REPRESENTATION AND COUNSELING, TEXAS VETERANS COMMISSION; AND 
  STEVE HERNANDEZ, COUNTY VETERANS SERVICE OFFICER, MCLENNAN 
                         COUNTY, TEXAS

             STATEMENT OF ELISEO ``AL'' CANTU, JR.

    Mr. Cantu. Good morning, Mr. Chairman Runyan, Ranking 
Member McNerney, and members of the Subcommittee. For the 
record, my name is Eliseo ``Al'' Cantu, Jr., Chair of the Texas 
Veterans Commission. I am humbled by the invitation to testify 
before you today on behalf of the Texas Veterans Commission. I 
would like to thank the Subcommittee for this opportunity and 
for your interest in the efforts the State of Texas has 
undertaken to serve its 1.7 million veterans.
    I am accompanied today by Mr. Jim Richman, Director of the 
Texas Veterans Commission's Claims Representation and 
Counseling Program. Mr. Richman has been with the agency for 
over 25 years.
    My testimony today will provide you with some background 
information regarding Texas' State Strike Force and Fully 
Developed Claims Teams Initiative directed by the State leaders 
this past July. Mr. Richman's testimony will provide you with 
the details of the initiative and an update on our progress and 
our keys to success.
    The Texas Veterans Commission is the veterans advocacy 
agency for the State of Texas. Our mission is to advocate for 
and provide superior service to veterans through four programs: 
Claims representation and counseling; veterans employment 
services; veterans education; and the Fund For Veterans' 
Assistance that will significantly improve the quality of life 
for all Texas veterans, their families, survivors and spouses.
    No other State has centralized all of these program areas 
within their State's veterans agency. Texas is becoming 
recognized for aggressively leading on veterans issues. 
National leaders have referred to the Texas model when 
advocating for the integration of veterans services.
    Texas Veterans Commission's Claims Representation and 
Counseling Program assists veterans prepare compensation and 
pension claims with the United States Department of Veterans 
Affairs. In 2011, our claims counselors handled 179,981 benefit 
claims on behalf of our veterans and dependents, filed 125,000-
plus monetary claims and 16,000-plus new appeals.
    In November 2009, Governor Rick Perry and the State 
Veterans Commission launched a special Claims Processing 
Assistance Team to assist veterans who had their claims for 
monetary benefits pending with our two VA regional offices in 
Waco and Houston, Texas. This project built upon the succession 
of a pilot project between the Texas Veterans Commission and 
the VA in 2008.
    At the time the CPAT project was announced, a total pending 
caseload of 39,000 Federal benefit claims existed in Texas' two 
VA regional offices. These CPAT teams consisted of 12 
additional claims counselors, six at each office. They targeted 
specific areas within the claims process, doing all development 
needed on the individual's claim and working directly with the 
claimants in identifying and acquiring necessary evidence. The 
project was funded for the period November 2009 to July 2011. 
In that time, the special CPAT teams returned to the VA 17,000-
plus cases ready for decision or award action.
    Since that time, the situation has become worse. On July 
16, 2012, the Commission testified before the State Senate 
Veterans Affairs and Military Installation Committee regarding 
the state of backlog in Texas. According to the VA, in January 
2010 the total pending caseload in Texas was 59,000 plus claims 
and 15,000 plus appeals. The number of cases that had been 
pending for over 125 days, which is what the VA considers 
backlog, was 16,800 claims. On July 14, 2012, the total pending 
caseload in Texas was 107,000-plus claims and 28,000-plus 
appeals. The number of cases that have been pending for over 
125 days was 68,612 claims. The backlog has more than 
quadrupled from 2010 to present. Presently the real world 
average for getting a decision from VA is 18 to 24 months.
    Following the hearing, the Governor, Lieutenant Governor 
and House Speaker Straus directed the Texas Veterans Commission 
to implement a team and a force to get behind eliminating the 
backlog. The State of Texas committed over $100,000 from the 
first pass and $1.5 million in 2012-2013 biennium to address 
the backlog of claims. The teams will be working on both ends 
of the claim process to ensure that the backlog is removed or 
brought down. We make sure that all the claims are processed 
and all the information is available. We work directly with the 
claimant. And we hope to be able to reduce the backlog in Texas 
by 17,000 claims.
    Mr. Richman is going to share with you how his team will 
make that goal a reality.
    Again I want to thank you for the opportunity to testify 
before you today. Thank you for the work the Committee is doing 
and will do on behalf of the Texas veterans and all veterans of 
this Nation's Armed Forces.
    Thank you, sir.

    [The statement of Eliseo ``Al'' Cantu appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Cantu.
    Mr. Richman, you are now recognized.

                 STATEMENT OF JAMES O. RICHMAN

    Mr. Richman. Good morning, Chairman Runyan, Ranking Member 
McNerney, and members of the Subcommittee. I am Jim Richman. I 
am the Texas Veterans Commission Director of Claims 
Representation and Counseling and it is truly a privilege to 
serve in that capacity. This morning I will provide you with 
the details of the Texas Veterans Strike Force Team and the 
Fully Developed Claims Team and provide an update at only one 
month into the project and highlight some keys to successful 
implementation.
    As soon as the direction came this past July from Governor 
Rick Perry, Lieutenant Governor David Dewhurst, and House 
Speaker Joe Straus to reinstate a form of this initiative, we 
began building two separate teams. We expanded on the old 
method.
    First, there are two State Strike Force Teams, one in Waco 
and one in Houston. Rather than talk about what we have already 
said, I am going to tell you what they are going to do. These 
16 members will take cases that are over 125 days old and not 
only identify the development that still needs to be done, but 
actually accomplish that development with the intention of 
handing it back to the VA completely ready to rate.
    The Fully Developed Claims Teams, if you consider the 
Strike Force Team working on cases over 125 days old and the 
Fully Developed Teams working at the front end of the process 
to make sure that every claim that can possibly fit the Fully 
Developed Claim Initiative is done so, then we are working both 
ends against the middle. We feel like this is a very needed 
addition to what we have done in the past in certain projects.
    The update, within days of the State leaders' authorization 
of the teams, we posted the positions. We now have filled all 
of those positions in the initiative, and those hires include 
personnel with significant VA claims experience, including 
former and retired VA and TVC employees with a total combined 
experience with the VA claims process of over 700 years. This 
is critical in the success of this program. We have returning 
to work a former TVC Waco regional director, we have a VA 
former assistant service manager, a hearing officer, numerous 
decision review officers, VSRs, RVSRs and coaches.
    During this initial period lead TVC and VA personnel have 
been working together very closely to create a standard 
operating procedure. I would like to point out with no 
absolute, with all certainty, that Area Director Beth McCoy, 
Houston Director Pritz Navaratnasingam and Waco Director John 
Limpose and their staffs have completely bought into what we 
can accomplish with this endeavor. Both VA regional offices in 
Waco and Houston have provided TVC with additional space, 
training materials and the logistical support that we need to 
cooperate in this endeavor and make it truly successful.
    Are we cooperating with the VA or coordinating with the VA 
and assisting the VA, helping the VA? Absolutely, yes we are. 
But our mission in this endeavor is to improve the timeliness 
and get veterans and their families the benefits they have 
earned and very desperately need, especially in this economy.
    As of Monday, September 17th, members of the State Strike 
Force Teams have reviewed 2,525 cases. I would like to bring to 
your attention, this is in the first month of operation while 
we are even hiring up. Of those backlogged claims, identifying 
and executing all required additional development, they have 
already delivered to the VA 852 claims fully developed and 
ready to rate.
    Mr. Chairman, we have identified the keys to success, 
because to coin a phrase, this ain't our first rodeo based on 
those two previous projects, and there are several essential 
elements required for the successful implementation of these or 
like initiatives: Complete support from the VA regional offices 
involved, which we have all the way from upper management down. 
The individuals hired to staff such an initiative must be 
experienced with the VA's claim process. This is imperative. 
Any initiative should utilize identified best practices for 
claims development and dedicated funding to support the 
initiative for a set period of time in order to realize 
meaningful reduction of the backlog.
    In closing, I would like to thank the Subcommittee for the 
opportunity to share this information with you, the State 
leaders that have provided TVC with the opportunity to make a 
tangible difference in the lives of veterans in the State of 
Texas, and TVC has demonstrated the capability to have a 
positive impact on this issue twice before.
    I mean absolutely no disrespect by what I am fixing to say, 
because the VA is full of hard-working, dedicated, well-
intentioned people, but the backlog has been talked about for 
so long and has continued to grow that the VA has become 
institutionally desensitized to the backlog. Make no mistake, 
the veterans are not desensitized to the backlog and to the 
timeliness of claims.
    We hope with the support of this Subcommittee and Federal 
funding, we believe that Texas and other States have the 
capability to successfully replicate and implement similar 
initiatives. Like those famous Texans who drew a line in the 
sand at the Alamo, Governor Perry, Lieutenant Governor 
Dewhurst, and Speaker Straus have drawn a line in the sand 
regarding the backlog of claims in Texas and say ``no more.'' 
The Texas Veterans Commission is making a difference now 
because the veterans we serve already did.
    Thank you for your time, sir.

    [The statement of James O. Richman appears in the Appendix]

    Mr. Runyan. Thank you, Mr. Richman.
    I now recognize Mr. Hernandez for his statement.

                  STATEMENT OF STEVE HERNANDEZ

    Mr. Hernandez. Thank you, sir.
    Mr. Chairman, Ranking Member McNerney, members of the 
Subcommittee, my name is Steve Hernandez. I am the McLennan 
County Veterans Service Officer located in Waco, Texas. On 
behalf of the Veteran Community of Texas, the Veteran Community 
of Central Texas, the citizens of McLennan County, the 
Commissioner's Court of McLennan County and the McLennan County 
Veterans Service Office, thank you for allowing me to provide 
testimony on this very important issue that is affecting the 
Nation, the chronic backlog of benefit claims form our Nation's 
veterans.
    As you are well aware, nationally benefit claims submitted 
to the Veterans Affairs Regional Office have increased 
dramatically. We attribute the influx to an increased average 
of single digit to double digit individual disability claim 
submittals, economic stagnation, employment difficulties, 
issues involving social reintegration, and a continued stream 
of past era veterans submitting claims for the first time or 
resubmitting previously denied claims, just to mention a few.
    Unfortunately, from the regional perspective, the Waco VA 
Regional Office has been identified as the worst of the 57 
regional offices under the ASPIRE database. Because of this 
dubious distinction the Waco Regional Office is under intense 
scrutiny for the backlog and discussions continue on how the 
Federal Government can resolve this dilemma.
    Realizing the economic benefit in breaking through the 
backlog and the catastrophic condition under the current 
Federal system, State leaders have authorized the State veteran 
component of the Texas Veterans Commission to dedicate State 
assets to assist with the backlog claims with a commitment of 
$1.5 million Teams--for the State Strike Force Teams. I am 
having the same trouble you were, Congressman--a team of 
counselors who will assist in fully developed claims as well as 
assisting in claims assistance and development.
    To fully understand the Waco VA Regional Office's dismal 
performance requires an in-depth evaluation on the causes for 
such a backlog. The major cause for the spike in the backlog 
has been the Nehmer claims as well as the most recent 
presumptive Agent Orange illnesses, illnesses that have been 
long overdue in recognition.
    The Federal directive posed on the VA regional office as a 
responsible party on Nehmer death claims has proved to be a 
daunting task. Not only were there 40,000 more claims added to 
the operation for decision, but the award distribution became 
extremely complex as these claims involved estate succession 
that proved unprecedented like never before in deciding the 
rightful beneficiaries.
    In evaluating the backlog at the grassroots level, 
eliminating the claims backlog will require what hopefully will 
be a short-term commitment from States that have the ability to 
supplement State assets to assist in claims processing. The 
investment should yield an equitable rate of return for the 
State economy. Also the local private sector could become more 
involved as community partners in creating one-stop shops 
utilizing Federal, State and private funds and grants in 
assisting in the diagnosis of certain specialized claims that 
could relieve the decision process and the backlog also being 
experienced by the VA's health care system. The Veterans 
Benefit Management System must also be a priority in the 
development of advancing into the 21st century with new 
technology. The continued review of evaluating the 
effectiveness of the rating schedule diagnostics codes also 
should be considered.
    As a local Veterans Service Officer, I am the recipient of 
direct public contact from the veterans who are being 
confronted with life challenges as they await word on the 
status of their claim. The level of frustration, the coded 
threatened innuendoes, some uncontrolled anger outbursts, 
misunderstanding and the system confusion on the process, and 
dire economic need are the most common and frantic interactions 
that I have with the veteran while waiting on the decision. The 
most disheartening part of the prolonged process is that they 
could potentially be denied, which is a reality. Many have 
invested their future on the decision while waiting, leaving 
many with few alternatives but to become further dependent on 
other VA programs.
    The effects of prolonged backlog are affecting the veteran 
in the most adverse way. If the data is possible, I am certain 
it would be a travesty to know how the backlog has affected 
veteran homelessness, relationships, crime, addiction and 
mental health and suicides. The prolonged wait on claim 
decisions cannot be productive on our society, and, 
unfortunately, will continue to lead us into social problems at 
the national level. A sad and embarrassing end to the dedicated 
patriots who have braved austere conditions, family separation, 
traumatic experiences and multiple deployments to provide us 
the freedom and liberty as a free society.
    Thank you.

    [The statement of Steve Hernandez appears in the Appendix]

    Mr. Runyan. Thank you, Mr. Hernandez. With that, I will 
begin the first round of questions.
    Touching on what you, Mr. Hernandez, and Mr. Richman 
alluded to, I forget the exact words you used, but you are 
talking about the institution in general being callous to what 
is going on. I just wanted to really give you the opportunity--
I would think you would say the Strike Force has truly done a 
good job in assisting veterans. Could you put a personal face 
to that, a faster decision or more accurate decision and the 
outcome of that that the Strike Force has really accomplished 
and put a personal face to it?
    Mr. Richman. Yes, sir. When the vets come back and they are 
discharged, they are facing some of the most important times of 
their lives. They are trying to come back home, resocialize 
into civilian society, care for their families, get jobs, get 
education or training. No reasonable thinking individual being 
the vet coming back and filing for injuries that were incurred 
in service, taking 2 years to get an answer and their 
compensation for those conditions. This is making the life 
struggle more and more difficult every day. So that is what we 
want to work on with the Fully Developed Teams, is to get every 
possible claim that is fully developed into the fully developed 
claims process and then my staff, the team will work with 
keeping it in the track to make sure that the time period of 
processing is as short as possible.
    Then with the Strike Force Teams, they are reviewing the 
older cases that are 125 days old or more, and many of them, in 
Waco for example, because of the Nehmer cases, hundreds if not 
thousands of cases are 730 days old. They have a flash on them. 
And they are working those as feverishly as possible. But that 
is a long time to wait for an answer on monetary benefits, sir.
    Mr. Runyan. Talking about part of the problem, do you 
really think lack of access to the records slows down the 
process? I know Congressman Walz and myself had a piece of 
legislation just on the floor the other day actually to really 
address that. But do you see that as a hurdle, just lack of 
access to the information?
    Mr. Richman. Sir, development is one of the toughest parts 
of the entire claim process and anything we can do to get the 
VA quicker access to whatever records and documents from DOD, 
their service treatment records, all of those things can do 
nothing but improve the situation.
    Mr. Runyan. Do you have any suggestions through your 
experience as to how to make that process a little faster?
    Mr. Richman. Sir, the bureaucracy is substantial.
    Mr. Runyan. Understood.
    Mr. Richman. That is too long of an answer to address in 
this setting.
    Mr. Runyan. Thank you. Mr. Cantu, can you talk about the 
level of cooperation you have received from the VA employees 
and the RO, do you see the same level of cooperation with the 
Strike Force Team to the VA central office? Talk about each 
level and if there is uniform cooperation.
    Mr. Cantu. Well, the cooperation has been great. They do 
cooperate. They have given us space and access to information 
that we would not have gotten had we not developed a strong 
relationship with them in the past with our CPAT teams. They 
continue to do well. However, the problem is, as Mr. Richman 
says, is the bureaucracy. I mean, it is just ridiculous to have 
to wait that long before we can get action.
    Earlier you mentioned about a story. In the Texas Veterans 
Commission we had a letter from a daughter of a World War II 
veteran a while back that said her father had applied for 
benefits and it had been over a year and still no result, then 
a year-and-a-half and what have you. And then finally about 2 
years after that she wrote us a letter and said, I certainly 
appreciate that my father's rating finally came in service-
connected. I am sorry to inform you that he passed away 3 weeks 
ago.
    So this is America's greatest generation warrior that put 
his life on the line for our country and did not get the proper 
compensation that he was entitled to.
    Again, something has to be done at this level, at the 
congressional level. Something has to be done to ensure that 
our regional offices understand the need that is out there. Mr. 
Hernandez said many veterans are dying every day because of 
suicides and what have you. And what does that tell us? It 
tells us that we need to think outside the box, as Congressman 
Flores said, go after those that control the situation and 
demand answers and ensure that we get them done.
    Mr. Runyan. Thank you very much for that. With that I will 
recognize the Ranking Member, Mr. McNerney, for his questions.
    Mr. McNerney. Thank you, Mr. Chairman.
    We all want the same thing here. We want the VA claims 
processing to be fast and right. I know the people in the VA 
are working hard. They have got a big program in place. I 
appreciate what the State of Texas is doing and trying to do.
    My problem with this hearing is that it is kind of 
premature in my opinion to really make any conclusions about 
the program based on a fairly short implementation. But, 
nonetheless, you clearly learn some things. The underlying 
thing is here, and whoever wants to take this, what do you 
think would be the best thing the VA could do to address this 
backlog? What would be the single most important thing you 
could think of to help us get the VA steered in the direction 
that would reduce this backlog?
    Mr. Cantu. Well, I certainly believe that one of the most 
important things is to ensure that there is timely 
communications between the ROs and the claimant, because 
sometimes there are no communications. When you call a number, 
it takes forever to answer. You do not get clear answers. 
Sometimes it takes a while before mail gets to you to say we 
need additional information. I think communications is very, 
very important. They try. Their call centers are taking too, 
too many calls. They call our Texas Veterans Commission to find 
the status of their claims. That takes away from us working 
claims and doing that.
    So I think that communications, implementation, and 
ensuring that we are on board with the sensitivity of the 
individuals in the awards that we are dealing with. I mean, it 
is not something that we can turn our back on and say, well, 
you know, they can wait another 6 months or whatever. I am not 
saying they are doing that.
    But I would certainly encourage communications, constant 
communications from the RO office to the claimant and some of 
the State agencies to let them know what is going on. At our 
conference the other day we had Ms. McCoy from the Central 
Region of the VA came to our conference and spoke.
    Mr. McNerney. We are really limited. We have been called to 
vote. So if Mr. Richman or Mr. Hernandez has a fairly quick 
response.
    Mr. Richman. Congressman, the VA has over the years 
instigated numerous wonderful ideas, wonderful processes, but 
it gets over regulated to the point of non-functionality. The 
first example that comes to my mind is the QR review, the 
quality review, where every organization needs quality review, 
quality control. But they take a case, the quality review team 
reviews it, and then another quality review member reviews that 
quality review member's work, and it has created a paralysis of 
people being afraid to make a decision.
    Mr. McNerney. That is a definition of bureaucracy.
    Mr. Richman. Yes, sir. Yes, sir. And one thing, the reason 
our teams have always been so successful is we speed up the 
development process by using every possible venue to contact 
the veteran; telephone, email, family members, whatever, third 
party providers, doctors, hospitals. In the DAT program that 
the VA came to us and asked us to participate in, we concluded 
our development, full development in cases in 10.71 days. The 
VA's control cases that were the same types of cases and number 
of indications was 131 days, sir.
    Mr. McNerney. Mr. Hernandez?
    Mr. Hernandez. Yes, sir, real quick, just a knee-jerk 
reaction to your question there. I would say easing 
restrictions. I do know on a lot of packages that are sent to 
the veteran there are probably 15 pages, and out of those 15 
pages there are probably 12 that do not necessarily pertain 
specifically to their claim. How you can eliminate that or what 
you need to do, I can't answer that. But I will tell you----
    Mr. McNerney. I see heads shaking behind you, so you are on 
to something here.
    Mr. Hernandez. Well, I will be the first to tell you as a 
knee-jerk reaction, just answering your question directly as a 
direct question, I would say if we could maybe visit that 
first, along with some others. But that would be my first reply 
to you.
    Mr. McNerney. Thank you. I yield back.
    Mr. Runyan. I thank the gentleman. With that I recognize 
Mr. Flores. I am watching the floor very closely, so we do have 
time.
    Mr. Flores. Thank you, Mr. Chairman.
    Mr. Cantu, one of the statements you said is that something 
has to be done. Mr. Richman, you said that the bureaucracy has 
become desensitized. So I would ask you this: We have people in 
this world that process millions of claims a day in the private 
sector and they do it with very high accuracy. So what do you 
think about a potential pilot program where we pick a private 
contractor to process claims in a particular VARO and see how 
they do?
    Again, if you remember what I said at the beginning, I care 
about taking care of veterans. I really don't care as much 
about the bureaucracy. I want the bureaucracy to do their job. 
So we have given them lots of money, we have given them more 
people, but as you guys said, it hasn't worked.
    So what would you think about a pilot program, thinking 
outside the box again, to have a private contractor process 
claims in a particular area?
    Mr. Cantu. I would certainly concur that that is a step in 
the right direction, because a contractor will be loyal to the 
veterans, to ensure that they do their work. They don't have a 
bureaucracy that ties one of the quality assurance guys to be 
inspected or reviewed by someone else, by someone else, by 
someone else. They ought to have the authority to review that 
claim, and if all the evidence is there, make an award.
    Mr. Flores. Mr. Richman, any comments?
    Mr. Richman. Yes, sir. Let the State of Texas be the 
contractor.
    Mr. Flores. Okay. You know what you could do.
    Mr. Richman. We have proven it twice. The legalities, the 
VA is an administrative law process that takes years to 
understand. That is one of the problems. It takes years to 
understand. The people that we are hiring for these teams have 
700 years of experience, but they are also highly motivated. 
They are the people that when they worked for the VA wanted to 
be turned loose to accomplish the mission.
    Mr. Flores. I am going to try to get to Mr. Hernandez in a 
minute so I am going to try to keep the answers short. For 
instance, let's say we hired the State of Texas to do this, we 
subcontracted with the State of Texas. You have done processing 
on each end of the claims process. Could you do it from A to Z, 
do you think?
    Mr. Richman. Yes, sir.
    Mr. Flores. Mr. Hernandez, what are your thoughts about a 
pilot process like this?
    Mr. Hernandez. Sir, I think at this present time anything 
that could help the veteran would be very well received. In 
regards to a private contractor, I do agree with my colleagues 
here that it would be good to cut some of the bureaucracy and 
some of the red tape, have a focus more on the claim itself and 
either denying or approving the claim with that emphasis and 
not necessarily regulations. And I don't want to make that 
sound in a bad way, but naturally I just feel like it has 
become so complex that that particular part, the claim itself, 
is, like I said earlier, two pages of a 15-page disclosure.
    Mr. Flores. Mr. Hernandez, in your written testimony you 
had a couple of examples you wanted to share with us, real 
world examples. Can you share one of those examples in a minute 
and 46 seconds?
    Mr. Hernandez. Yes, sir. The first example is that of a 40-
year-old Gulf War I veteran. He submitted a new claim for PTSD 
and an increased evaluation for a recognized back condition. 
Once submitted, the letter received indicated that his claim 
had been received by the VA and the claim process had begun. 
Approximately 6 months later he received a VARO letter stating 
more information was requested to prove the nexus of his claim 
which, of course, is the relationship between his service and 
his claim condition. He provided a personal narrative with 
information on his experience and his current diagnosis. He 
also stated that he had service treatment--only had service 
treatment records from the VA health care system for medical 
records on his medical evidence.
    Approximately 3 months later he came in to inquire about 
his claim again--I am sorry, I thought my microphone had cut 
off--he came in to inquire about his claim again because he was 
experiencing some life challenges. His wife had been diagnosed 
with breast cancer and was losing her job and he had no other 
source of income. After the inquiry, he was told that he still 
needed additional information pertaining to the nexus. He then 
resubmitted the original narrative with a follow-up letter 
explaining his HTRs in VA medical treatment files as the sole 
basis of medical evidence once again.
    Another 3 months passed and no correspondence from the VA. 
We then called the VA again to be told that they had located 
the original information and he would be receiving a C&P exam 
in the near future. The C&P schedule did come in 6 weeks later 
and he was told when to report, which he did. At this time he 
was becoming agitated and anxious because his wife was 
receiving chemo treatment and the travel and expense was taking 
a toll on his overall mental and physical health.
    After taking the C&P, he waited another 3 months before 
coming to inquire again. He was then told that his exams had 
not been received from the VA health care system. He then 
decided to go talk to the RO and explain his plight so the 
public contact staff could put a face with the claim. He was 
distraught at this time.
    Apparently his demeanor concerned the RO because he was 
then advised to go to the VA hospital in Waco. Upon arrival at 
the hospital, he was admitted for a psychological exam and held 
for 72 hours because he appeared unstable. He was then 
counseled and released instead of concentrating on his claim 
for decision. He then did receive an award from Social Security 
disability which helped with his finances.
    He inquired once again approximately 2 weeks later only to 
be told that he would have to take another C&P exam on both 
claims. He was told the C&Ps were in August of 2012 and is now 
scheduled for both in October of this year. His wife's cancer 
is in remission but he continues to have financial 
difficulties, mental anguish and depression over the overall 
experience. His file is still pending and the decision has not 
been rendered. He is in his 18th month of the claim process.
    Mr. Flores. Thank you, Mr. Hernandez. As I said in my 
opening testimony, my opening comments, every number has a 
face.
    Thank you, Mr. Chairman. I yield back.
    Mr. Runyan. I thank the gentleman.
    Gentleman, on behalf of the Subcommittee, I would like to 
thank you for your testimony and look forward to working with 
you on these important matters and continuing to have updates 
from your progress as you tackle this issue. With that, you are 
now excused.
    That being said, the Committee will stand in recess until 
approximately 12 noon as we go vote.

    [Recess.]

    Mr. Runyan. At this time the Committee will come to order, 
and we will welcome the second panel to the table. First, we 
will have Ms. Diana Rubens, Deputy Under Secretary for Field 
Operations, Veterans Benefits Administration, U.S. Department 
of Veterans Affairs. Ms. Rubens is accompanied by Mr. John 
Limpose, the Director of Waco's Regional Office at the U.S. 
Department of Veterans Affairs. We appreciate your attendance 
today. Your complete and written statements will be entered 
into the hearing record. And Ms. Rubens, you are now recognized 
for 5 minutes for your opening statement.

  STATEMENT OF DIANA RUBENS, DEPUTY UNDER SECRETARY FOR FIELD 
 OPERATIONS, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT 
  OF VETERANS AFFAIRS; ACCOMPANIED BY JOHN LIMPOSE, DIRECTOR, 
 WACO REGIONAL OFFICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

                   STATEMENT OF DIANA RUBENS

    Ms. Rubens. Thank you, Mr. Chairman. Good afternoon, 
Ranking Member McNerney, and members of the Subcommittee. Thank 
you for the opportunity to discuss the Veterans Benefits 
Administration's work with the Texas Veterans Commission. I am 
accompanied today by Mr. John Limpose, the Waco Regional Office 
Director.
    VA is committed to achieving our goal of processing all 
claims within 125 days with 98 percent quality by 2015, and 
assistance from stakeholders like TVC is critical to our 
success in improving the claims process.
    As you know, VBA is in the midst of implementing its 
transformation plan and is relying on support from stakeholders 
to implement this transformation which changes interactions 
with our employees, other Federal agencies, veteran service 
organizations, and State and county service officers such as 
TVC.
    VBA's transformation is demanded by a new era of emerging 
technologies, the latest demographic realities, and our renewed 
commitment to today's family, veterans, family members, and 
their survivors. In the face of dramatically increasing 
workloads, VBA must deliver first-rate and timely benefits and 
service and they must be delivered with greater efficiency.
    I would like to touch on several components of our 
transformation plan. eBenefits: Veterans now have the access to 
benefit information from multiple channels, on the phone, 
online, or through DOD and VA shared portal called eBenefits. 
This eBenefits portal provides 45 self-service features to 
check the status of a claim, or an appeal, review a history of 
payments, access military personnel records, numerous other 
benefit actions. eBenefit enrollment now exceeds 1.8 million 
users. Also, disability benefits questionnaires. DBQs are a 
template that solicit the medical information necessary to 
evaluate veterans' medical conditions. VA has made 71 DBQs 
available to the public so that veterans can take them to their 
private physicians for completion. Ten additional DBQs for 
specialized medical examinations and opinions are used by VA 
physicians, bringing the total number of DBQs to 81.
    Also, our fully-developed claim, it is a veteran's 
disability benefit claim that consists of a complete 
application, all military and civilian treatment records, and 
relevant military personal records, to include the DD-214. 
Veterans participating in the FDC program are often supported 
by their VSOs, would send in all of the required evidence with 
their claims, and certify that they have nothing left to 
provide. The more claims that we receive that are fully 
developed, the faster that we can make decisions.
    In fact, today, claims submitted under the FDC program are 
processed in an average of 115 days; however, only 3 percent of 
claims from VSOs and State and county service officers are 
currently submitted through the FDC program. VBA's target for 
2013 is to increase this percentage to 20 percent participation 
rate.
    TVC and the Waco RO first conducted a pilot, the 
Development Assistant Pilot Program. In this partnership four 
TVC employees assisted with review and development of cases 
needing rating decisions. A second pilot with TVC, the Claims 
Processing Assistance Team, was conducted with Waco and Houston 
regional offices where TVC dedicated 12 full-time counselors to 
contact claimants by telephone, email, or other means to 
facilitate completion of required development.
    The Texas State Legislature 2013 biennial budget includes 
$1.5 million to create Task Strike Force Teams to work side by 
side with Houston and Waco regional offices to reduce the 
number of pending claims and appeals. On August 15, a planning 
meeting was conducted between TVC and Houston and Waco where 
TVC committed counselors to the strike force teams. Counselors 
will be stationed at each RO, will concentrate both on 
gathering evidence and working with veterans to submit fully-
developed claims, as well as focus on pending appeals and 
claims.
    The TVC counselors on the strike force teams will assist by 
gathering evidence from veterans and securing health care 
records to expedite claims processing. However, the new 
partnership will do much more to support submission of fully 
developed claims as well as the disability benefits 
questionnaires.
    VBA hopes that with the assistance of TVC's strike force 
team we will far exceed our goal of receiving 20 percent of the 
claims from veterans represented by TVC by the end of 2013.
    Other partnerships across the States with FDC include the 
Chicago regional office having provided a pilot of the FDC 
initiative confirming that the FDC allows employees to spend 
less time developing gathering evidence, and spend more time 
rating claims, reducing the backlog. VBA also would like to 
especially recognize the Maine Department of Veterans Services, 
for their outstanding assistance as they today are providing up 
to 42 percent of their claims as fully developed.
    In July of this year, an FDC workshop was held here in 
Washington with representatives from 10 different VSOs. The 
goal was to emphasize the positive impact of filing FDCs and 
emphasized receipt of FDCs with disability benefits 
questionnaires would further improve processing time.
    VSO and State and county service officers are important 
partners in our transformation to better serve veterans, their 
families, and survivors. In our pilot projects with TVC, we 
experience positive outcomes. We believe there are greater 
opportunities to improve service and productivity in the new 
partnership and the broader scope from the new strike force 
teams will assist VBA in decreasing the backlog in Houston and 
Waco. VA will carefully track and monitor the strike force 
teams and assess the potential for future partnerships or 
pilots to be expanded at our ROs.
    Mr. Chairman, this concludes my statement. I am pleased to 
answer any questions you or any other members may have.

    [The statement of Diana Rubens appears in the Appendix]

    Mr. Runyan. Thank you, Ms. Rubens, I appreciate that. 
Actually, passing the Ranking Member in the hallway on the way 
here I had a question. We know it is early in what the strike 
force is doing, but can you give a sense of if you feel it is 
working, and it is benefiting and helping you actually be able 
to execute what you are supposed to do at the regional office?
    Ms. Rubens. I would tell you, sir, that in fact we are 
building on the benefits that we have seen in the past and as 
they help us provide review of claims and make things, if you 
will, ready for decision, it will speed the process by which a 
claim is able to move through the system and enhance the 
timeliness of the decision we provide to the veteran.
    Mr. Runyan. Are you finding statistically that they are 
done correctly?
    Ms. Rubens. Mr. Chairman, I am going to tell you I am going 
to defer that one to Mr. Limpose, who is on the ground with the 
folks in Waco.
    Mr. Limpose. Sir, TVC is working very, very well with the 
Waco Regional Office and also the Houston Regional Office. 
Currently, they are, one of every three cases they are 
reviewing, for about a 33 percent gathering of information, or 
making the case ready for decision is helping us make those 
cases work in a more timely fashion. So they are helping and I 
think it is a very, very positive story that we can branch out 
into just not only TVC, but all of our stakeholders.
    Mr. Runyan. Is there a metric of following a claim's 
processing by the strike force through the whole process and a 
comparison at the end between the traditional realm ?
    Mr. Limpose. Sir, we are early in the stages currently 
working with Mr. Richman on a standard operating procedure 
between both eastern Waco and Texas Veterans Commission. We 
have some metrics we will be putting in place to be able to 
aggregate some data in the future.
    Mr. Runyan. Ms. Rubens, given the statistics on claims 
processing in Waco, why was this RO chosen for the Nehmer 
claims after the new Agent Orange presumptives were added?
    Ms. Rubens. Chairman Runyan, as we identified locations to 
aggregate the previously denied Nehmer conditions, Waco had a 
day-one brokering center already in place. They were the focus 
for where we would process the reviews of those things that had 
been previously denied. Frankly, it was a function of the fact 
that they had the resources, if you will, to capacity, that as 
we looked at it was in addition to what was already in the 
service center, whose focus was on the Waco jurisdiction 
claims.
    Mr. Runyan. Was it more of an issue of expertise than 
anything else?
    Ms. Rubens. I would say that for all of the day-one 
brokering centers that we moved the roughly 93,000 claims that 
needed review, we did actually extensive training around the 
conditions for those three new presumptives that were added and 
as those folks worked those claims, I would tell you that many 
of them with the volume of ischemic heart disease claims that 
they worked, became true experts in those issues, and frankly, 
as a function of moving away from once they completed the 
review of those claims, it was an opportunity and a requirement 
that we, if you will, refresh everybody that was doing that 
work so that they would then be able to move back to general 
rating claims.
    Mr. Runyan. Moving on to, what I think most of us think is 
going to help another part of the backlog is VBMS. Do you know 
where we are when Waco and Houston are scheduled to start using 
VBMS?
    Ms. Rubens. Yes, sir, as part of our transformation, one of 
the things that VBA is doing is first implementing, if you 
will, the people and the process components of the 
transformation plan. Houston has actually already implemented 
the people and the process components, with Waco coming 
somewhere down the line. The expectation would be then that 
VBMS, as it continues to, I will say mature, will then follow 
that same path with an expectation that that being the case, 
Houston will see VBMS first and Waco shortly thereafter, 
recognizing that retraining your entire workforce on a new 
technology all at once might not be the right way to go, but we 
are moving out smartly working to get both people and process 
and the VBMS, the technology component for the processors 
rolled out as quickly as we can.
    Mr. Runyan. Mr. Limpose, what is the average processing 
time for fully developed claims versus non-fully developed 
claims in the Waco--between the Waco and Houston offices?
    Mr. Limpose. The fully developed claims are being processed 
on average of about 100 days sooner than our normal workload is 
right now. We fully expect to improve upon that. Obviously, I 
am not happy with that, and we are going to do everything we 
can to fully, fully take advantage of the work with our 
stakeholders to make sure that we deliver timely services and 
that overall the normal workload has had an impact due to, 
obviously, some of our Agent Orange work that we have completed 
under the national mission. We are proud to say that the office 
completed an extraordinary number of cases. We finished up last 
August and it had some impact and we are feverishly working 
some of our oldest cases out there which has a negative impact 
on the way our claims are aggregated.
    So I fully expect that we will continue to trend in a more 
positive direction, and that I am happy to say that last month 
the Waco Regional Office successfully completed 4,400 cases in 
service output to veterans, which is a 50 percent increase over 
the strategic target that we had for last month.
    Mr. Runyan. That all being said and simply put, would you 
agree that fully developed claims not only help the process 
move faster, but also, ease the strain on the veteran just as a 
general statement?
    Mr. Limpose. Absolutely, sir. Those claims that we will be 
working with all of our stakeholders to bring in the front door 
as fully developed will help us in that market of evidence 
gathering during our claims process timeliness, should shorten 
that, and then in the long run give us better timeliness and 
service and output to veterans.
    Mr. Runyan. Do you believe, between VSRs, RVSRs, DROs, that 
both of the offices are adequately staffed or do they need 
additional adjudicators required to help us tackle this?
    Mr. Limpose. Sir, I cannot answer for Houston. However, at 
the Waco Regional Office I feel that in my veteran service 
center with approximately 470 employees that I am adequately 
staffed and that we are fully focused and feverishly processing 
cases as fast as we can, sir.
    Mr. Runyan. Are you diverting any appeals staff to do the 
work on the initial claims at all?
    Mr. Limpose. Sir, that is a very delicate balance. We are 
working all facets of the claims process to include the 
appellate work.
    Mr. Runyan. On July 10, 2012, VBA released a report on 
challenge training showing an increased productivity among VBA 
rating specialists after receiving the training. How many of 
your Waco staff have received the challenge training?
    Mr. Limpose. All of our new employees, sir, go through 
challenge training. I have only been there 5 months. Every new 
VSR and RVSR goes through our challenge curriculum, and I would 
have to ask to get the exact number back to you on the entire 
staff of the Waco Regional Office.
    Mr. Runyan. I would appreciate that because my next 
question was, were you measuring it. So I would appreciate 
those numbers if you would get them to the Committee.
    Mr. Limpose. Yes, sir.

    Mr. Runyan. Were there any employees at the Waco RO held 
accountable for the office's dismal performance in claims 
processing?
    Mr. Limpose. Sir, we hold people accountable for their 
individual performance standards and we will take appropriate 
action, when deemed necessary, for poor performance in serving 
our veterans. We have done so in the past and will continue to 
do so in the future. I am always looking to have the best and 
brightest individuals serving our veterans and our claimants, 
and I will continue to raise the bar to make sure we meet all 
expectations out of the Waco Regional Office.
    Mr. Runyan. I appreciate that. I don't have anything 
further, but like the conversation I had with the Ranking 
Member earlier today, we know we are early in this process, and 
I think we all agree that fully developed claims make it a lot 
easier on everybody. And I think we all have a hand in that, 
whether it is from my personal congressional office helping a 
veteran, whether it is our county VSO officers doing the same 
thing, and I think that the team approach to doing this, which 
the State of Texas has taken an honest attempt at it to truly, 
take care of our veterans. We have to be open-eyed to this, and 
know there is multiple solutions and multiple ways to get 
there. As the Ranking Member said, we are still early in this 
process, but I think we can see some uptick from it and some 
positives.
    So I look forward to hopefully continuing this discussion 
down the road as we can get some more statistical analysis, 
some more, I would say, comforting stories from our veterans 
that we are serving. This is the one biggest thing where they 
can see the light because, specifically in this room let alone 
up on the Hill, bureaucracy is a word that just makes the back 
of your neck tingle sometimes because of the uphill battles we 
have to climb to not give our men and women what we promised 
them, especially our warriors, is something I think most of us 
would not sleep well at night thinking about.
    So I thank you for coming and doing this, and also 
everybody from the State of Texas with the strike force, and 
thank you for your testimony.
    And with that being said, I want to thank everyone for 
being here this day. I would like to again emphasize that the 
fact that all veterans in central Texas face the longest time 
for claims processing is an issue. The backlog for claims 
processing is one that affects veterans nationwide, including 
many in my home State of New Jersey. Therefore, I applaud the 
State strike force in their efforts at addressing the issue, 
and thank the VA for being here today to participate in a 
discussion on the new approaches, and there probably will be 
many more to come on this very long-standing problem.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and include any 
extraneous materials. Hearing no objection, so ordered. I thank 
the members that were in attendance today, and this hearing is 
now adjourned.

    [Whereupon, at 12:41 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jon Runyan, Chairman
    Good morning and welcome everyone. This oversight hearing of the 
Subcommittee on Disability Assistance and Memorial Affairs will now 
come to order.
    As is often the case when this Subcommittee convenes, we are here 
to discuss the backlog of veterans' disability benefits claims. 
Unfortunately, when such discussions take place, we often find 
ourselves having the same discussion over and over.
    Frustrated veterans want to know why it takes so long to process 
their claim. Frustrated lawmakers want to know why the backlog keeps 
increasing. And frustrated VA employees want everyone to know that the 
folks on the front lines are doing the best they can to try to keep up 
with an increasing amount of claims.
    However, every so often a new idea is interjected into the 
discussion, and we are here today to discuss one such idea.
    In 2009, the State of Texas created a ``Claims Processing 
Assistance Team'' that helped reduce pending claims at the State's two 
Regional Offices, or ``ROs'', in Waco and Houston. $400,000 was 
allocated toward about a dozen employees over several months, and those 
employees reduced the number of pending claims in Waco and Houston by 
17,000. Despite this success, the situation has since worsened for 
veterans not only in Texas but across the country, as the amount of 
pending claims has doubled since that time.
    As a recent Center for Investigative Reporting study reveals, the 
impact of the backlog varies by region. The study finds that: veterans 
in sparsely populated states often have their benefits claims processed 
faster than those in more populous states.
    In addition to this study, the media has also been paying close 
attention to veterans who must wait the longest to receive their 
benefits - which are veterans in Texas and, as is well-known to the 
Ranking Member Mr. McNerney, California.
    But, the fact remains that no matter where a veteran is located, 
more often than not, that veteran is waiting too long to receive their 
benefits decision.
    Once again taking action into their own hands, in late July of this 
year, the Texas State Legislature created a ``State Strike Force 
Team,'' led by the Texas Veterans Commission. This time around, they 
have allocated $1.5 million dollars and 16 full time employees. The 
goal of the State Strike Force Team is to assist veterans and their 
families in receiving disability compensation and pension payments 
earlier than expected.
    Specifically, eight claims counselors will be located at both the 
Houston and Waco Regional Offices to help process claims. There will 
also be ``Fully Developed Claims'' Teams located throughout the state 
to improve access and assist veterans in filing fully developed claims.
    By examining this process today, we are hoping that this State 
Strike Force Team will serve as a model to other states and perhaps 
even lead to the creation of a similar Federal Strike Force Team.
    I want to thank the VA, the Texas Veterans Commission, and Mr. 
Hernandez for their valuable input as we work together to find 
important solutions to the growing backlog of claims.
    I welcome today's witnesses to continue this ongoing discussion and 
offer their own specific recommendations on how to improve the current 
system of processing veterans' disability claims.

                                 <F-dash>
                  Prepared Statement of Mr. Cantu, Jr.
GREETING
    Good morning, Chairman Runyan, Ranking Member McNerney, and Members 
of the Subcommittee. For the record, my name is Eliseo ``Al'' Cantu, 
Jr., Chair of the Texas Veterans Commission. I am humbled by the 
invitation to testify before you today. On behalf of the Texas Veterans 
Commission, I would like to thank the Subcommittee for this opportunity 
and for your interest in the efforts the state of Texas has undertaken 
in order to better serve the 1.7 million veterans in our state.
    I am accompanied today by Mr. Jim Richman, Director of Texas 
Veterans Commission's Claims Representation and Counseling program. Mr. 
Richman has been with the agency for over 25 years, working his way up 
from entry-level claims counselor to becoming the program director in 
2006.
    My testimony will provide you with some background information 
regarding Texas' State Strike Force and Fully Developed Claims Teams 
Initiative, directed by state leaders this past July. Mr. Richman's 
testimony will provide you with the details of the initiative, and an 
update of our progress, keys to its success.
TEXAS VETERANS COMMISSION
    The Texas Veterans Commission is the veterans advocacy agency for 
the state of Texas. Our mission is to advocate for and provide superior 
service to Veterans in the areas of claims assistance, employment 
services, education, and grant funding that will significantly improve 
the quality of life for all Texas Veterans, their families and 
survivors. The Texas Veterans Commission provides these services 
through four program areas: Claims Representation and Counseling, 
Veterans Employment Services, Veterans Education Program, and the Fund 
for Veterans' Assistance.
    No other state has centralized all of these program areas within 
their state's veterans agency. Texas is becoming recognized for 
aggressively leading on veteran issues. National leaders have referred 
to the ``Texas-model'' when advocating for the integration of veterans 
services.
    Texas Veterans Commission's Claims Representation and Counseling 
Program assists veterans prepare compensation and pension claims with 
the U.S. Department of Veterans Affairs (VA). In 2011, Mr. Richman's 
claims counselors handled 179,981 benefit cases on behalf of veterans 
and dependants, filed 125,179 new monetary claims, and 16,101 new 
appeals.
CLAIMS PROCCESSING ASSISTANCE TEAMS (CPAT)
    In November 2009, Governor Rick Perry and the Texas Veterans 
Commission launched the special Claims Processing Assistance Team 
(CPAT) project to assist Texas Veterans who had their claims for 
monetary benefits pending with the two VA regional offices in Texas 
(Waco and Houston). This project built upon the success of a pilot 
project between the Texas Veterans Commission and VA in 2008. At the 
time the CPAT project was announced, a total pending caseload of 39,000 
federal benefit claims existed in Texas' two VA regional offices. These 
CPAT Teams consisted of 12 additional claims counselors (6 at each 
regional office). They targeted specific areas within the claims 
process, doing all development needed on the individual claims and 
working directly with the claimants in identifying and acquiring 
necessary evidence. The project was funded for the period from November 
2009 to July 2011. In that time, these special CPAT teams returned to 
the VA 17,325 cases ready for decision or award action.
STATE STRIKE FORCE AND FULLY DEVELOPED CLAIMS TEAMS INITIATIVE
    Since that time, the situation has become measurably worse. On July 
16, 2012, the Commission testified before the State Senate's Veterans 
Affairs and Military Installations Committee regarding the state of the 
backlog in Texas. According to the VA, in January 2010, the total 
pending caseload in Texas was 50,934 claims and 15,644 appeals. The 
number of cases that had been pending over 125 days, what the VA 
considers backlogged, was 16,803 claims. On July 14, 2012, the total 
pending caseload in Texas was 107,279 claims, and 28,183 appeals. The 
number of cases that had been pending over 125 days, what the VA 
considers backlogged, was 68,612 claims. In essence, in Texas, the 
total pending caseload has more than doubled while the backlog has more 
than quadrupled from 2010 to present. Presently, the real world average 
for getting a decision on a VA claim is 18 to 24 months.
    Following that hearing, on July 19, 2012, Lieutenant Governor David 
Dewhurst, working with Governor Rick Perry and State House Speaker Joe 
Straus, directed the Texas Veterans Commission to reinstitute the 
``State Strike Force Teams'' that were implemented in 2009 to help 
reduce this federal backlog of veterans' claims for disability 
benefits. The state leadership also directed the Texas Veterans 
Commission to help the backlog by assisting veterans in filing fully 
developed claims, which are processed faster by the VA, and to address 
critical staffing needs in areas where Veterans need additional access 
to Texas Veterans Commission Claims Counselors. On July 25, 2012, 
Governor Perry provided $100,000 to the Texas Veterans Commission to 
immediately implement these teams. On July 26, 2012, Governor Perry, 
Lieutenant Governor Dewhurst, and Speaker Straus authorized the Texas 
Veterans Commission to utilize $1,511,267 in the 2012-2013 biennium to 
address the backlog of federal disability claims.
    These teams will be working on both ends of the claims process to 
ensure that the backlogged claims and new claims have all the 
information and evidence needed in order to allow a more timely 
decision. The goal of this initiative, with the single year of funding 
we have been authorized, is to reduce the current backlog of claims in 
Texas by 17,000 claims.
    Mr. Richman is going to share with you how he and his teams will 
make that goal a reality, momentarily. Again, I want to thank you for 
the opportunity to testify before you today. Thank you for the work are 
doing, and will do, on behalf of Texas veterans, and all veterans, of 
this Nation's Armed Forces.

                                 <F-dash>
                   Prepared Statement of Mr. Richman
INTRODUCTION
    Good Morning, Chairman Runyan, Ranking Member McNerney, and Members 
of the Subcommittee. My name is Jim Richman and I have the privilege of 
serving as the Director of Claims Representation and Counseling at the 
Texas Veterans Commission. As the Chairman mentioned, I have been with 
the agency for over 25 years. I am a veteran myself and come from a 
family where military service was expected, as is the case with 
countless families across this Nation and across the great State of 
Texas. My father and uncles were members of the greatest generation and 
participated in some of the toughest combat in WWII. By the grace of 
God, they all came home and they taught me to be a part of something 
bigger than myself. I instill that virtue in my Claims Counselors, all 
of whom are veterans, many of them disabled veterans. Serving the 
veterans of Texas, their families and survivors is not only our 
mission, it is our duty, as veterans serving fellow veterans.
    This morning, I will provide you with the details of Texas' State 
Strike Force and Fully Developed Claims Team Initiative, provide an 
update, one month in to the initiative, and highlight some keys to 
successful implementation.
    In his remarks, Chairman Cantu outlined the gravity of the 
situation for us in Texas, that in the years from 2010 to 2012, the 
total pending caseload of claims has doubled and the number claims 
pending longer than 125 days, backlogged, has quadrupled. I will only 
emphasize that the end of combat operations in Iraq, a decreased 
military presence in Afghanistan, and force shaping measures announced 
by the Department of Defense in January 2012 are expected to greatly 
increase the demand and need for these services. This influx, coupled 
with the increasing demand of an aging population of WWII, Korea, 
Vietnam, and Gulf War I Era veterans threatens to compound the workload 
of a system already operating beyond capacity.
    As I am confident that this Subcommittee has received prior 
testimony from the U.S. Department of Veterans Affairs (VA) and others 
regarding the overwhelming backlog of claims and the unacceptable 
current timelines of 18-24 months associated with claims processing, I 
will not belabor the point any further. What I will add is that this 
situation exists, despite the fact that, in Texas, the VA is full of 
dedicated, hard-working people who are trying to do the right thing for 
the veterans they serve. The problem is the complexity of the process.
    The information that follows is how we propose to assist the VA in 
Texas with regard to reducing the backlog and improving processing 
timeliness of current claims.
DETAILS OF THE INITIATIVE
    The concept for the State Strike Force and Fully Developed Claims 
Teams was developed as the result of best practices and lessons learned 
from two previous cooperative projects with the VA in Texas. The first, 
in 2008, was the Development Assistance Pilot Project (DAPP) wherein 
the VA Central Office requested a TVC team to conduct claims 
development parallel to a team from the VA. In the final analysis of 
this project, development of the claims processed by the TVC Claims 
Counselors was accomplished in 10.73 days compared to the VA's 131 
days. At the time, VA Undersecretary for Benefits Patrick Dunn 
commended the results and the VA Office of Field Operations provided 
all of its regional offices with a copy of the final report, and 
encouraged them to implement the best practices identified by the 
project.
    The second, the Claims Processing Assistance Teams (CPAT), Chairman 
Cantu covered in his remarks. CPAT was a state project, funded by the 
Governor's Office from November 2009 to July 2011. Twelve (12) TVC 
Claims Counselors targeted specific areas within the claims process, 
doing all development needed on the individual claims and working 
directly with the claimants in identifying and acquiring necessary 
evidence. By the end of the project, TVC had handed back to the VA 
17,325 cases ready for decision or award action.
    As soon as the direction came this past July from the Governor Rick 
Perry, Lieutenant Governor David Dewhurst, and House Speaker Joe Straus 
to reinstate a form of this initiative, we began building two separate 
teams.
STATE STRIKE FORCE TEAMS
    First, there are two (2) State Strike Force Teams, each consisting 
of eight (8) members located at each of the two VA Regional Offices in 
Texas (Houston and Waco). The purpose is to assist the VA by 
accomplishing all necessary development on cases that have been pending 
for over 125 days (backlogged) and return to the VA ready for decision. 
These teams will review cases and not only determine what development 
needs to be done, but to actually accomplish that development utilizing 
best practices identified in previous projects, which include:

    <bullet>  Utilizing every resource available (telephone, email, 
fax, family members, and mail as a last resort) to contact the veteran, 
clarify or get additional information on his or her claim.
    <bullet>  Contacting private physicians, hospitals or any other 
party or entity that has information to give the Veteran the highest 
possibility of a favorable decision on the claim.
    <bullet>  Expediting claims and appeals through submission of 
waivers, as appropriate.
    <bullet>  Contacting claimants with Decision Review Officer (DRO) 
hearing requests.
    <bullet>  Contacting claimants with Board of Veteran Appeals (BVA) 
partial grants for resolution of appeal.
    <bullet>  Identifying inadequate exams.
    <bullet>  In our review, if we find ``directed development'' or 
things that have been overlooked or not finalized, we will make 
recommendations regarding what is needed.
FULLY DEVELOPED CLAIMS TEAMS
    The Fully Developed Claims Teams were the critical missing piece of 
our previous projects to assist the VA with reducing the backlog of 
claims. While the State Strike Force Teams are attacking cases already 
caught in the backlog, the Fully Developed Claims Teams will work on 
the front end of the process to ensure that qualifying new cases being 
filed by TVC Claims Counselors (an average of 500 claims and appeals 
per day) are filed in a fully-developed status. They will work with the 
TVC field counselors and Veterans County Service Officers (VCSO's) to 
assist them in making every claim possible a fully developed claim, and 
work with the VA Regional Offices to expedite their ratings.
    There are two (2) Fully Developed Claims Teams of five (5) members 
in each of the two VA Regional Offices in Texas (Houston and Waco). The 
five Fully Developed Claims Team members inside the VA Regional Offices 
will be working with our TVC field staff to:

    <bullet>  Provide additional training, resources, and assistance in 
properly preparing fully developed claims prior to submission.
    <bullet>  Utilize ``Informal Claims'' whenever necessary to insure 
the Veterans date of claim is protected.
    <bullet>  Review incoming claims to identify those which could be 
made fully developed claims.
    <bullet>  Review existing claims and determining if they could be 
``re-filed'' as fully developed claims.
    There are an additional eight (8) Fully Developed Claims Team 
members in the field will be utilized to augment the staff of field 
office locations that have the highest daily volumes of veteran 
clientele, thereby allowing the counselors in those offices to have 
more time to develop the claims they file, ensuring they meet the 
threshold of fully developed.
UPDATE
    Within days of state leaders' authorization of the teams, we posted 
the positions and began hiring. As of September 1, we filled all 34 
positions created as a result of the initiative. Those hires include 
personnel with significant VA claims experience, including former and 
retired TVC and VA professionals with a total combined experience with 
the VA claims process of over 700 years.
    During this initial period, lead TVC and VA personnel have been 
working together to create the Standard Operating Procedures (SOP). I 
would like to point out that VA Area Director, Beth McCoy, Houston 
Regional Office Director, Pritz Navaratnasingam, Waco Regional Office 
Director, John Limpose, and their staffs have completely bought in to 
what we can accomplish with this endeavor. Both VA Regional Offices 
have provided TVC with the additional space, computers, training 
materials and support we need to make this a truly successful endeavor. 
We have already devised workflow and workload tracking because we must 
be able to track all of our production from both teams. The VA has 
provided us with specific people and/or locations to receive the files, 
use of the ``Covers'' computer program to track our work, and to 
locations to deliver our work. Of course, everything we do is subject 
to adjustments and improvements as we progress into the project.
    As of Monday, September 17, members of the State Strike Force Teams 
have reviewed 2,525 case files of backlogged claims, identifying and 
executing all required additional development. They have already 
delivered 852 claims to the VA, fully developed and ready to rate.
KEYS TO SUCCESS
    Based on experience gleaned from previous projects and with Texas' 
State Strike Force and Fully Developed Claims Teams initiative, there 
are several essential elements required for the successful 
implementation of these, or like, initiatives.
    1. Complete support from the VA Regional Offices involved.
    No state level initiative can succeed without the complete support 
of the VA Regional Offices involved, in particular the Regional Office 
Directors. The need for additional workspace, computers, training 
materials, and access to VA systems and applications, necessitates the 
need for a solid working relationship between the state agency and VA 
personnel. VA Regional Office Directors need to direct their entire 
staff to recognize the experience of the team members and be accepting 
of their suggestions when devising workflow and workload tracking. As 
with any cooperative effort, transparency and feedback from both 
parties regarding the effectiveness of efforts is critical to refining 
processes and procedures.
    2. The individuals hired to staff such an initiative must be 
experienced with the VA claims process.
    Based on our previous experience with the projects referenced, an 
experienced workforce is critical to the success of a project like 
this.
    3. Any initiative should utilize identified best practices for 
claims development.
    As previously discussed, our prior cooperative projects (DAPP and 
CPAT) have identified best practices for claims development. The 
effective implementation of these practices has demonstrated that they 
can drastically reduce the time required to get claims through the 
development process to a rating decision.
    4. Dedicated funding to support the initiative for a set period of 
time in order to realize meaningful reduction in the backlog of claims.
    The value of federal funding such initiatives is obvious. The 
specific situation faced by the particular state veteran agency or VA 
Regional Office will dictate the funding requirement and length of time 
such funding would be required in order to affect reduction in the 
claims backlog. In Texas, state leaders have currently authorized $1.5 
million in state funds for the State Strike Force and Fully Developed 
Claims Teams initiative for one fiscal year. TVC's goal for this 
initiative, for this single year, is to reduce the backlog of claims in 
Texas by 17,000 claims.
CLOSING
    In closing, I would like to thank the Subcommittee for the 
opportunity to share this information with you today. State leaders 
have provided TVC with the opportunity to make a tangible difference in 
the lives of veterans of the state of Texas. TVC has demonstrated the 
capability to have a positive impact on this issue twice before. With 
the support of this Subcommittee and federal funding, we believe that 
Texas and other states have the capability to successfully replicate 
and implement similar initiatives. Like those famous Texans who drew a 
line in the sand at the Alamo, Governor Rick Perry, Lieutenant Governor 
David Dewhurst, and House Speaker Joe Straus have drawn a line in the 
sand regarding the backlog of claims in Texas to say ``No More''. The 
Texas Veterans Commission is making a difference now, because the 
veterans we serve already did.

                                 <F-dash>
                  Prepared Statement of Mr. Hernandez
    Mr. Chairman and Members of the Subcommittee,
    My name is Steve Hernandez. I am the McLennan County Veterans 
Service Officer, located in Waco, Texas. On behalf of the veteran 
community of Central Texas, the citizens of McLennan County, the 
Commissioners Court of McLennan County, and the McLennan County 
Veterans Service Office thank you for allowing me to provide testimony 
on a very important issue that is affecting the Nation: The Chronic 
Backlog of Benefit Claims for our Nations' veterans.
    As you are all aware, nationally, benefit claims submitted to the 
Veterans Affairs Regional Office (VARO) have increased dramatically. We 
attribute the influx to an increased average of single digit to double 
digit individual disability claim submittals, economic stagnation, 
employment difficulties, issues involving social reintegration, and a 
continued stream of past era veterans submitting claims for the first 
time or resubmitting previously denied claims, just to mention a few.
    Unfortunately, from a regional perspective, the Waco VARO has been 
identified as the worst of the 57 RO's under the ASPIRE database. 
Because of this dubious distinction, the Waco RO is under intense 
scrutiny for the backlog and discussion continues on how the federal 
government can resolve this dilemma. Realizing the economic benefit in 
breaking through the backlog and the catastrophic condition of the 
current federal system, state leaders have authorized the state veteran 
component of the Texas Veterans Commission to dedicate state assets to 
assist with the backlogged claims with a commitment of $1.5 million 
dollars for the State Strike Force Teams, a team of counselors who will 
assist in fully developed claims as well assisting in claims assistance 
and development.
    To fully understand the Waco VARO's dismal performance requires an 
in-depth evaluation on the causes for such a backlog. The major cause 
for the spike in the backlog has been the Nehmer claims as well as the 
most recent presumptive Agent Orange illnesses. Illnesses that have 
been long overdue in recognition. The federal directive posed on the 
Waco RO as a responsible party to Nehmer death claims proved to be a 
daunting task. Not only were there 40,000 more claims added to the 
operation for decisions but the award distribution became extremely 
complex as these claims involved estate succession that proved 
unprecedented like never before in deciding the rightful beneficiaries.
    In evaluating the backlog at the grass root level, eliminating the 
claims backlog will require what hopefully will be a short term 
commitment from states that have the ability to supplement state assets 
to assist in claims processing. The investment should yield an 
equitable rate of return for the state economy. Also, the local private 
sector could become more involved as community partners in creating 
``one stop'' shops utilizing federal, state, or private funds and 
grants in assisting in the diagnosis of certain specialized claims that 
could relieve the decision process and the backlog also being 
experienced by the VA's health care system. The Veterans Benefit 
Management System must also be a priority in the development of 
advancing into the 21st century with new technology. The continued 
review of evaluating the effectiveness of the rating schedule 
diagnostics codes should also be considered.
    As the local veterans service officer, I am the recipient of direct 
public contact from the veterans who are being confronted with life 
challenges as they await word of the status of their claim. The level 
of frustration, coded threatening innuendos, some uncontrolled anger 
outbursts, misunderstanding and system confusion on the process, and 
dire economic need are the common and frantic interactions with the 
veteran while waiting for a decision. The most disheartening part of 
the prolonged process is if they are denied, which is a reality. Many 
have invested their future on the decision while waiting, leaving many 
with few alternatives but to become further dependent on other VA 
programs.
    The effects of the prolonged backlog are affecting the veteran in 
the most adverse way. If the data is possible, I am certain it would be 
a travesty to know how the backlog has affected veteran homelessness, 
relationships, crime, addiction, mental health, and suicides. The 
prolonged wait on claim decisions cannot be productive on our society 
and unfortunately will continue to lead to social problems at the 
national level. A sad and embarrassing end to the dedicated patriots 
who have braved austere conditions, family separation, traumatic 
experiences, and multiple deployments to provide us the freedom and 
liberty as a free society.

                                 <F-dash>
                   Prepared Statement of Mrs. Rubens
    Good morning Chairman Runyan, Ranking Member McNerney, and Members 
of the Subcommittee. Thank you for the opportunity to discuss the 
Veterans Benefits Administration's (VBA's) work with the Texas Veterans 
Commission (TVC) to expedite claims processing for Texas Veterans. I am 
accompanied today by Mr. John Limpose, Director of VBA's Waco Regional 
Office (RO). VA is committed to achieving our goal of processing all 
claims within 125 days with 98 percent accuracy in 2015, and assistance 
from stakeholders like TVC is critical to our success in improving the 
timeliness and accuracy of the claims process.
VBA Transformation
    VBA is in the midst of implementing its Transformation Plan and is 
relying on support from stakeholders to better serve our Veterans, 
Servicemembers, and their families. This transformation changes 
interactions with our employees, other Federal agencies, Veterans 
Service Organizations (VSOs), and state and county service officers, 
such as TVC.
    VBA's transformation is demanded by a new era, emerging 
technologies, the latest demographic realities, and our renewed 
commitment to today's Veterans, family members, and survivors. In the 
face of dramatically increasing workloads, VBA must deliver first-rate 
and timely benefits and services - and they must be delivered with 
greater efficiency. VBA is aggressively pursuing its Transformation 
Plan, a series of tightly integrated people, process, and technology 
initiatives designed to eliminate the claims backlog and achieve our 
goal of processing all claims within 125 days with 98 percent quality 
in 2015.
    VBA is working to simplify processes and reduce the burden of 
paperwork for both Veterans and our workforce. Many of our 
transformation initiatives will improve efficiency and customer 
service. While stakeholder engagement is important to nearly all of 
VBA's transformation initiatives, I would like to highlight three 
initiatives, the eBenefits web portal, disability benefit 
questionnaires (DBQs) and the fully developed claims (FDC) program, in 
which Veterans service officers play a vital role.
    eBenefits: Veterans now have access to benefit information from 
multiple channels--on the phone, online, or through the Department of 
Defense (DoD) and Department of Veterans Affairs (VA) shared portal 
called eBenefits. The eBenefits portal provides over 45 self-service 
features to check the status of a claim or appeal; review the history 
of VA payments; request and download military personnel records; secure 
a certificate of eligibility for a VA home loan; and numerous other 
benefit actions. eBenefits enrollment now exceeds 1.8 million users, 
and VA expects enrollment to exceed 2.5 million by the end of 2013. VA 
is engaging our VSO, state and county partners in registering Veterans 
for eBenefits accounts.
    DBQs: DBQs are templates that solicit the medical information 
necessary to evaluate Veterans' medical conditions. VA has made 71 DBQs 
available to the public, so that Veterans can take them to their 
private physicians for completion. Ten additional DBQs for specialized 
medical examinations and opinions are used by VA physicians, bringing 
the total number of DBQs to 81. DBQs facilitate submission of a fully 
developed claim, the fastest means of getting a claim processed. VBA is 
informing stakeholders, particularly VSOs and state and county 
partners, about DBQs so they can encourage Veterans to utilize these 
templates and receive more timely and accurate rating decisions.
    FDC: A Fully- Developed Claim (FDC) is a Veterans disability 
benefit claim that consists of a complete application, all Military and 
civilian medical treatment records, and relevant Military personnel 
records to include the DD 214. Veterans participating in the FDC 
program, often supported by their VSO representatives, send all the 
required evidence with their claims and certify that they have nothing 
further to provide. By doing this, they dramatically reduce the 
processing time of their claim. The more claims we receive that are 
fully developed, the faster we can make decisions. Currently, claims 
submitted under the FDC program are processed in an average of 115 
days. However, only three percent of claims from VSOs and state and 
county service officers are currently submitted through the FDC 
Program. VBA's target for FY 2013 is to increase this percentage to 20 
percent - meaning VBA will have the ability, if this goal is reached, 
to complete 153,000 more claims before they can become backlogged. VBA 
is exploring both monetary and nonmonetary incentives for its VSO 
partners to increase FDC submission because of the impact this would 
have on claims-decision timeliness.
Initial TVC Pilots
    The Waco RO first conducted a pilot, the Development Assistant 
Pilot Project (DAPP), from June 2008 through January 2009. In this 
partnership, four TVC employees assisted with the review and 
development of cases needing rating decisions. VA gave TVC counselors 
32 hours of training in claims processing. Follow-up training was also 
given to counselors on an ``as needed'' basis. A VBA first-line 
supervisor was assigned to provide subject matter expertise, oversight, 
guidance, and review of the work each counselor completed. TVC touched 
over 1,600 claims, 33 percent of those claims were made ready for 
decision. Evidence was received in an average of 11 days during our 
initial partnership with TVC.
    An additional pilot, the Claims Processing Assistance Team (CPAT), 
was conducted with TVC and the Waco and Houston ROs from November 2009 
through July 2011. TVC had funding available to support CPAT. TVC 
dedicated 12 full-time counselors to contact claimants by telephone, e-
mail, or other means to facilitate completion of required development. 
CPAT members also worked with health care providers and DoD to expedite 
receipt of requested information needed to complete claims.
    TVC's review was limited to claims where TVC was designated as the 
claimant's accredited representative. They were and are unable to 
assist with the entirety of the Waco and Houston ROs' workload. Claims 
determined to be ready-for-decision were forwarded to the ROs' decision 
makers for expedited action.
TVC Strike Force Teams
    The Texas State Legislature's 2012-2013 biennial budget includes 
$1.5 million to create TVC Strike Force Teams to work side-by-side with 
the Houston and Waco ROs to reduce the number of pending claims and 
appeals. On August 15, 2012, a planning meeting was conducted between 
leadership of TVC and the Houston and Waco ROs. At the meeting, TVC 
committed to assign 34 counselors to the Strike Force Team. Thirteen 
TVC counselors will be stationed at each RO, five of whom will 
concentrate on gathering evidence and working with Veterans to submit 
FDCs, and the other eight will focus on pending claims and appeals. The 
remaining eight counselors will be stationed at key field locations 
around the state.
    Similar to the previous pilots, TVC counselors on the Strike Force 
Teams will assist by gathering evidence from Veterans and securing 
health-care records to expedite claims processing. However, the new 
partnership will do much more than the CPAT pilot to support submission 
of FDCs as well as DBQs. VBA hopes that with the assistance of TVC's 
Strike Force Team, we will far exceed our goal of receiving 20 percent 
of claims from Veterans represented by TVC through the FDC program by 
the end of fiscal year 2013.
    As of September 11, 2012, the Houston RO's inventory of pending 
disability claims included 38,088 claims, of which 27,981 or 75 percent 
were pending longer than 125 days and are considered to be part of VA's 
backlog. The Waco RO's inventory included 50,039 claims, of which 
38,217 or 76 percent were pending over 125 days. The ultimate goal of 
our partnership with TVC is to impact these numbers in a positive 
manner, and provide the Veterans in Texas with fast and accurate 
service.
    In addition to FDC claims, TVC will also assist the Houston and 
Waco ROs with their appeals inventory by working with appellants to 
identify cases in which appealed issues may be resolved through written 
submissions or informal conferences without the need for a hearing and 
to determine whether a partial grant of benefits by VA resolved the 
appeal to the appellant's satisfaction.
    VBA has provided desk space in the in both Houston and Waco ROs for 
all TVC employees. They will be provided training with a special focus 
on FDC. The TVC Strike Force Teams will also have VBA tools and 
training materials at their disposal and may consult with members of 
the ROs' Quality Review and Training Teams on an as-needed basis. RO 
staff will provide regular feedback regarding the quality of the cases 
deemed ready-for-decision by TVC.
FDC Partnerships in Other States
    Since our last partnership with TVC, VA has been reviewing and 
reengineering our business processes in collaboration with both 
internal and external stakeholders, including VSOs, state and county 
service officers, and Congress, to constantly improve our claims 
process using best practices and ideas. There are approximately 8,000 
Veterans service officers nationwide, and they are an integral part of 
our transformation initiatives, particularly the FDC program.
    In December 2009, the Chicago RO was selected to pilot the FDC 
initiative. Since the beginning of the FDC program, open and continual 
communication has occurred between the Chicago RO and the collocated 
VSOs. Through this pilot, VBA confirmed that the FDCs allow employees 
to spend less time developing and gathering evidence for claims and 
spend more time rating claims and reducing the backlog.
    The Togus Regional Office has also established a robust FDC program 
by forming a strong relationship with VSOs in the Maine. VBA especially 
recognizes the Maine Department of Veterans Services for the 
outstanding assistance they are providing to the Veterans they 
represent, submitting 42 percent of their claims as FDCs.
    On July 31, 2012, an FDC workshop was held in Washington, DC, for 
representatives from 10 VSOs. The goal of the workshop was to emphasize 
the positive impact of filing FDCs, and VBA emphasized that the receipt 
of DBQs with FDCs would further improve processing time. A presentation 
on the technical process of submitting a FDC was provided, and the 
Director of the Chicago Regional Office led a discussion on how ROs and 
VSOs can work together to increase participation in the FDC program.
Conclusion
    VSOs and state and county service officers, such as TVC, are 
important partners in VBA's transformation to better serve Veterans, 
their families, and survivors. In our pilot projects with TVC, VBA 
experienced positive outcomes; we believe there are greater 
opportunities to improve service and productivity in the new 
partnership with TVC. The broader scope from the new Strike Force Teams 
can assist VBA in decreasing the backlog in the Houston and Waco RO's. 
VA is working on a standard operating procedure that will clearly 
outline the responsibilities of both VA and TVC and assist the agencies 
in ensuring a smooth process. VA will carefully track and monitor the 
Strike Force Teams and assess the potential for future partnerships or 
pilots to be expanded to other ROs.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other Members of the Subcommittee may have.

                                 <F-dash>
                        Questions for the Record
    Questions from Honorable Jon Runyan, Chairman, Subcommittee on 
Disability Assistance and Memorial Affairs to Ms. Diana Rubens, Deputy 
Under Secretary for Field Operations:

    (1) How many employees at the Waco Regional Office have gone 
through VA's new Challenge training?
    (2) How is VA measuring the progress of those going through the 
Challenge training against those who have not been through the 
training?
    (3) What have the results been so far?

    Responses from Ms. Diana Rubens, Deputy Under Secretary for Field 
Operations to Honorable Jon Runyan, Chairman, Subcommittee on 
Disability Assistance and Memorial Affairs:

    1. Answer: Deliverables: The number of Waco and Houston VARO 
employees that have received the new eight week Challenge Training.
    The number of Waco and Houston Regional Office employees that 
received the new eight week Challenge training is provided below. Also 
included is the number of VSRs that attended the four week Challenge 
session. The eight week VSR Challenge session included both Pre- and 
Post-Determination training, allowing employees to work on either team. 
The four week VSR training session provided training on either Pre-or 
Post-Determination, but not both.


                                    Challenge Sessions 2011-6 through 2012-5
----------------------------------------------------------------------------------------------------------------
                         Regional Office                          RVSR  (8 Week)   VSR  (8 Week)   VSR  (4 Week)
----------------------------------------------------------------------------------------------------------------
Houston.........................................................             23               6              10
----------------------------------------------------------------------------------------------------------------
Waco............................................................            103              49              31
----------------------------------------------------------------------------------------------------------------

    2. Answer: Comparing a current cohort to employees to a previous 
Challenge cohort is not feasible. Beginning in FY 2012, Compensation 
Service modified the employee performance tracking system (ASPEN) so 
VBA could begin tracking Challenge students' production. Before we 
implemented that modification, comparing the aggregate performance of 
previous cohorts of Challenge students or existing journey-level 
employees who have not been through Challenge would have been extremely 
time consuming and difficult, requiring manual generation and timely 
aggregation of hundreds of individual reports.
    3. Answer: THe first group of VSRs who completed the revised 
Challenge curriculum in September 2011 produced an average of 5.58 
weighted cases per day during September 2012. The national production 
standard for a VSR GS-9 (typically the grade after 12 months) is 5 
weighted cases per day. The September 2011 cohort of Challenge-trained 
VSRs is exceeding its aggregated performance expectation by more than 
10 percent.
    The first group of RVSRs who completed the revised Challenge 
curriculum in September 2011 produced 2.92 weighted cases per day 
during September 2012. The production standard for RVSRs on the job for 
12 months is typically between 1.5 and 2 weighted cases per day. (There 
are no national production standards for non-journey level RVSRs at 
this time. Each office negotiates locally). The September 2011 cohort 
of Challenge-trained RVSRs is exceeding its aggregated performance 
expectation by approximately 50 percent.

                                 <all>

</pre></body></html>
